      Department of Homeland Security




     Costs Claimed by the Northern Illinois Railroad 

           Corporation Under Transit Security 

            Grant Number 2009-RA-R1-0098





            American Recovery and Reinvestment Act of 2009



OIG-13-37                                                    February 2013

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov

                                      FEB 5 2013

MEMORANDUM FOR: 	             David J. Kaufman
                              Acting Assistant Administrator
                              Grant Programs Directorate
                              Federal Emergency Management Agency

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT: 	                    Costs Claimed by the Northern Illinois Railroad Corporation
                              Under Transit Security Grant Number 2009-RA-R1-0098

Attached for your information is our final letter report, Costs Claimed by the Northern
Illinois Railroad Corporation Under Transit Security Grant Number 2009-RA-R1-0098.
We incorporated the formal comments from the Associate Administrator for Policy,
Program Analysis and International Affairs in the report.

The report contains one recommendation to resolve the questioned costs. The
Associate Administrator concurred with the recommendation. As prescribed by the
Department of Homeland Security Directive 077-01, Follow-Up and Resolution for Office
of Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendation
will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on
our website for public dissemination.

Major contributors to this report are Roger LaRouche, Director; Matthew Mongin,
Senior Auditor; and Stephen Doran, Report Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Background
   ThefAmericanfRecoveryfandfReinvestmentfActfoff2009f(Recovery Act), as amended,
   appropriated $150 million to the Federal Emergency Management Agency (FEMA) for
   Public Transportation Security Assistance and Railroad Security Assistance under
   sections 1406 and 1513 of thefImplementingfRecommendationsfoffthef9/11fCommissionf
   Actfoff2007, as amended. FEMA focused grants under this program on (1) operational
   packages for canine teams, mobile explosives detection screening teams, and
   antiterrorism teams, and (2) capital projects for activities such as infrastructure
   protection. On July 31, 2009, FEMA awarded a transit security grant of $1,670,988 to
   the Northeast Illinois Railroad Corporation (commonly referred to as METRA) for one
   antiterrorism team.1

   With grant funds, METRA deployed the antiterrorism team on its trains and in its train
   stations from November 2009 until August 2012. METRA claimed and received FEMA
   reimbursements of $1,428,219 for salaries and benefits of team members, their
   uniforms and protective clothing, and two police vehicles.

   Reimbursement for eligible grant project costs is based on the Department of Homeland
   Security FiscalfYearf2009fRecoveryfActfTransitfSecurityfGrantfProgramfGuidancefandf
   ApplicationfKit (GuidancefandfApplicationfKit), the Uniform Administrative Requirements
   for Grants and Cooperative Agreements to State and Local Governments contained in
   the (44 Code of Federal Regulations part 13), and CostfPrinciplesfforfState,fLocalfandf
   IndianfTribalfGovernments contained in Office of Management and Budget (OMB)
   Circular A-87, Revised.

   The grant also includes requirements for complying with OMB Circular A-133, Revised,
   AuditsfoffStates,fLocalfGovernments,fandfNon-ProfitfOrganizations,fand Recovery Act
   provisions for submitting quarterly recipient reports to the Department of Homeland
   Security on the use of Recovery Act funds; paying prevailing wages as determined by the
   Secretary of Labor; and using American-made iron, steel, and manufactured goods.

   The objective of this audit was to determine whether costs claimed by METRA were
   allowable, allocable, and reasonable according to the grant agreement and applicable
   Federal requirements.



                                          

   1
       METRA provides commuter rail service to the six counties surrounding Chicago, Illinois. 


www.oig.dhs.gov                                           2                                        OIG-13-37
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Results of Audit
   Of the $1,428,219 claimed for reimbursement, we questioned $113,032 representing
   overclaimed fringe benefits on overtime paid to antiterrorism team members. The
   GuidancefandfApplicationfKit limits fringe benefits on overtime as discussed below.
   Also, we determined that METRA properly prepared and submitted the required
   quarterly reports to the Federal Government.

   Overclaimed Fringe Benefits

   The GuidancefandfApplicationfKit states that “Fringe benefits on overtime hours are
   limited to FICA [Federal Insurance Contributions Act], Workers Compensation and
   Unemployment Compensation.” Together, these total from 10 to 15 percent of base
   labor wages for the years of the grant. However, in these years METRA applied its
   approved fringe benefit rate of about 70 percent of base labor to both regular wages
   and overtime.2 The 70 percent rate includes employer contributions for such items as
   pension plans; health insurance; and vacation pay, holiday pay, and sick leave, in
   addition to fringe benefits allowed for overtime. Based on the difference between the
   allowable fringe benefits and the 70 percent rate benefits, we estimated that METRA
   overclaimed fringe benefits by approximately $113,032.

   Recommendation
   We recommend that the Assistant Administrator, Grant Programs Directorate:

       1. Resolve the $113,032 of questioned fringe benefit costs.

   Management Comments and OIG Analysis
   Management Comments

   FEMA concurs with the recommendation. FEMA will initiate appropriate processes to
   recoup $113,032 in expended fringe benefit costs. In addition, within 90 days of receipt
   of the Office of Inspector General’s final report, FEMA will work with the Northeast


   2
    The Federal Transit Administration of the U.S. Department of Transportation approved indirect cost
   rates for METRA for fiscal years 2009, 2010, 2011, and 2012. The approved fringe benefit rates were
   approximately 70 percent of base labor wages with a minor variation for those periods.

www.oig.dhs.gov                                       3                                             OIG-13-37
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Illinois Railroad Corporation to create a corrective action plan following established
   guidelines to ensure future adherence to cost guidelines.

   OIG Analysis

   FEMA’s actions are responsive to the recommendation. However, the recommendation
   will remain open and unresolved until final implementation of the corrective actions.




www.oig.dhs.gov                                 4                                       OIG-13-37
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed by METRA were
   allowable, allocable, and reasonable according to the grant and applicable Federal
   regulations. To accomplish our objective, we examined costs of $1,428,219 claimed by
   METRA from November 2009 to April 2012. In conducting our audit, we did the
   following:

   •	 Obtained and reviewed the Recovery Act, the grant application and award, the
      GuidancefandfApplicationfKit, and Federal cost principles and grant administrative
      requirements.

   •	 Interviewed METRA personnel to gain an understanding of their accounting system
      and the applicable internal controls.

   •	 Reviewed the fiscal year 2010 Single Audit report to identify issues and other
      conditions that could affect our examination.

   •	 Reviewed the recipient’s internal controls specifically related to our objectives.

   •	 Examined payroll records, vendor invoices, and other evidence supporting costs
      claimed of $1,428,219.

   •	 Reviewed contract files and supporting documentation for the vendors selected to
      provide uniforms, protective clothing, and police vehicles.

   •	 Reviewed accounting transactions related to wages, overtime and fringe benefit
      payments, and related claims for FEMA reimbursements.

   •	 Performed fraud detection procedures.



www.oig.dhs.gov                                5                                   	       OIG-13-37
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We conducted this performance audit between June and September 2012 pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   finding and conclusion based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our finding and conclusion based upon our
   audit objective.




www.oig.dhs.gov                              6                                      OIG-13-37
                                            OFFICE OF INSPECTOR GENERAL
                                                     Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report


                                                                                                         I·.S. neputm~'flt of !li,melun;!   ~cc!lri!~
                                                                                                        'Iv:d,i"l'W11_ 1)('20,172




                  \Il.EMORANDt.!\l FOR:                   /\.n'lC L. Richards
                                                          Assistant In;;.pec:or General for AmLts
                                                          Office of !nspeewr Gencrf!l

                  FROM:                                   David J. K,Ltfrnan      I("~'
                                                          /\ssociate Adninistra or !<:Jr
                                                          Poli,:)', Program /\nal\'sl.'. ind :ntemationa' Affaits

                  SUBJECT:                                JZcsponsc to OIG Dm/i !?I..'pm,/' R<'1'/ew oleos!s ('!afmed br !he
                                                          'VOJ'lhCflYf Illinois i?oiIr(}(u/ Corporation [Inrier r"'wlsil Seenril)' Ciran!
                                                          ,\'umber ]()O,:)RAR j(j(j()S



                  The Federa! Emcrgcncyl'Vlat1<lgemcnt Agcncy (FE\,fA) appreciates. the opportunity to le,'lC-W and
                  respond w the Departmen1 of Homeland Security (Dl-IS) Olliee of Inspedor (jenera! (OlG) Draft
                  Report: Review olCosts ('!aimed hy the North,'u)'! f!IillOis Rarlruud C'OIporalioll ljnd('r Transir
                  Seeuri!y Gron! ,vumber 20()9-RA-l(J~()098, ,As noted in otlr response to your recommendation
                  bdow, FE!v1A is continuing to work to resolve (he issu.::s idc:1tifi.cd in the audit and \\/c arc putting in
                  place u process to ,,"oid similar problems in the finure.

                  01G Recommendation: We reco;]lmcnd 6,,\t til;: Assistant Administrator. Grant Prognuns
                  Dircc\OrHlt', re:.;oivc the q1.k''>'.ioncd fring(' benefit c>:)sts ofS: ! 3,032

                  FEMA Response~ FEMA C()neurs \vith the 01(1';> recommendation. FFMA win initime <lpprorwintt~
                  processes to recoup 5113,032 .in                unallow'Ib,(> costsln additi(!l], wi6in 90 days of :·eceipt
                  of the 0IG'So final rC[)()lt,            \vil! \ymk 'Altll the NonlKTlst Winois Railroad Curporation
                              to create a c()rre':ti~/(; llction p!an tnllmvi:1g established gltideiint'B to i;.'lJ.sure future
                  cdhclcncctc U.Ht guidditH~:;.

                  ~· LMA   requests    tl:i:~   rcccmrn;;:m.ll1tion be considered rc,;olv-;:,j ,md ope') pending dSVl",op'"n,,"l
                  rnrlC11\~n,ittio'l   o( t b.: corrt:ctive action    ",;'11) :';sllnln!.al (.\ll\\C)\c:(iujJ ;:)Gtc ;


                               your          "':PiFt.        dn not hcsiu;te tc ~>mtaU           /\ lUll Liilison om :c
                                 l'ik Kr:';:fi ejl 202Ai46·j 3)fLwitj; (i'JY qx.;sdm>          u.mcen;\ rcgardinf!      response,




www.oig.dhs.gov                                                             7                                                                           OIG-13-37
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



   Appendix C
   Potential Monetary Benefits
                                  Classification of Monetary Benefits
                                                            Questioned
                                              Funds To Be              Questioned
                                     Rec.                     Costs –
              Finding                            Put to                 Costs –     Total
                                     No.                   Unsupported
                                               Better Use                Other
                                                               Costs


    Overclaimed fringe benefits       1                     $113,032                $113,032


    Total                                                   $113,032                $113,032




www.oig.dhs.gov                                  8                                    OIG-13-37
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Departmental Recovery Act Coordinator
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               9                            OIG-13-37
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
